OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/LEBANON’S
LANDMINES AND WAR VICTIMS
PROGRAM


AUDIT REPORT NO. 6-268-12-004-P
JANUARY 18, 2012




CAIRO, EGYPT 

Office of Inspector General


January 18, 2012

MEMORANDUM

TO:        	           USAID/Lebanon Mission Director, Jim Barnhart

FROM: 	                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	              Audit of USAID/Lebanon’s Landmines and War Victims Program
                       (Report No. 6-268-12-004-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft and have included them in Appendix II.

The report includes 14 recommendations to USAID/Lebanon. In response to the draft report,
USAID/Lebanon officials generally agreed with all recommendations. As a result, management
decisions have been reached on all recommendations except Recommendation 9 and parts of
Recommendation 12, and final action taken on Recommendations 4, 5, 6, 7, 10, 11, 13, and 14.
Please provide action plans and target dates for implementing Recommendation 9 and a
revised action plan for Recommendation 12 within 30 days of the final report. In addition,
please provide the Audit Performance and Compliance Division of USAID’s Office of the Chief
Financial Officer with evidence of final action to close all recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat Street, off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 6 


     USAID/Lebanon Did Not Obtain Approval for Project Extension ............................................ 6 


     USAID/Lebanon Did Not Obligate Project Funds Appropriately ............................................. 7 


     USAID/Lebanon Did Not Monitor Sustainability of the 

     Development Cooperative Adequately.................................................................................... 9 


     USAID/Lebanon Did Not Submit a Revised Project Budget for 

     Agreement Officer Approval .................................................................................................. 12 


     USAID/Lebanon Did Not Seek Approval of Subawards for 

     Construction Activities ........................................................................................................... 13 


     USAID/Lebanon Did Not Obtain Equipment Disposition Instructions ................................... 15 


     USAID/Lebanon Did Not Assess Environmental Impact of Imported Livestock .................... 17 


Evaluation of Management Comments................................................................................... 19 


Appendix I—Scope and Methodology .................................................................................... 21 


Appendix II—Management Comments ................................................................................... 23 


Appendix III—Selected Work Plan Indicators for Project Component 2.............................. 29 


Appendix IV—World Rehabilitation Fund’s Performance Management Indicators for 

Fiscal Years 2010 and 2011...................................................................................................... 30 


Appendix V—Project Agreements and Modifications ........................................................... 32 




The following abbreviations appear in this report:

ADS             Automated Directives System
AOTR            agreement officer’s technical representative
FY              fiscal year
GAO             Government Accountability Office
OMB             Office of Management and Budget
SME             small to medium-sized enterprise
USG             U.S. Government
WRF             World Rehabilitation Fund Inc.
SUMMARY OF RESULTS 

Landmines course below the ground in much of Lebanon, lethal reminders of the war and
conflicts that have ravaged the country since the 1970s. Their devastation is especially obvious
in the southern District of Jezzine, where more than 1,350 people have been disabled by
landmines, according to USAID. They—as well as their families and communities—have
needed help to become productive again and improve their livelihoods. Therefore, part of
USAID/Lebanon’s 5-year country strategy emphasizes support for small and medium-sized
enterprise (SME) development to improve the well-being of the Lebanese people.

Since June 1998, USAID/Lebanon, with funding from the Leahy War Victims Fund,1 has
awarded the World Rehabilitation Fund Inc. (WRF) about $10 million through two cooperative
agreements to implement the Landmines and War Victims Project. Details of the agreements
appear in the table below.

                       Table 1. Cooperative Agreements Awarded to WRF
              Name                     Purpose                      Dates                  Amount
    Preventing Landmine      To prevent landmine injuries     June 1998–              $4.6 million
    Injuries and Managing    and manage the social            September 2006
    the Social Burden of     burden of landmine victims in
    Landmines in Lebanon     Lebanon
    Expanding Economic       To expand economic               September 2006–
    Opportunities for        opportunities for war and        August 31, 2008;        $2.8 million
    Victims of War in the    landmine victims and             Extended through
    District of Jezzine –    survivors                        August 30, 2012*        $5.7 million*
    South Lebanon
    * The agreement was modified seven times; the date and amount shown reflect the last
    modification as of September 30, 2011.

As of June 30, 2011, USAID/Lebanon had obligated approximately $4.9 million and disbursed
approximately $4.4 million of the current award.

Under the project, WRF, a U.S. nonprofit organization, seeks to create economic opportunities
through viable businesses and jobs for disadvantaged victims of war, including landmine
survivors. The project also seeks to create a viable, bankable, and sustainable legal
organization—the development cooperative in Jezzine (the co-op).

WRF was tasked with providing technical and material assistance to the co-op and its members
to improve the productivity and profit of at least eight program activities, including the following:

	 Honey-processing facility and related activities. WRF was expected to provide each
   beneficiary with (1) 15 beehives complete with bees, accessories, and supplies (shown
   below); (2) training and technical assistance on modern methods of beekeeping and
   processing; (3) quality control through laboratory testing and certification; (4) access to
   modern honey-processing facilities and techniques; (5) technical assistance and training on

1
 According to USAID’s Web site, the Leahy War Victims Fund is one of USAID’s efforts to provide a
dedicated source of financial and technical assistance for people living with disabilities, particularly those
who have sustained mobility-related injuries from unexploded ordnance or landmines.

                                                                                                            1
   innovative specialty products; (6) access to co-op’s wax processing and recycling
   capabilities; and (7) product marketing support.




  Beehives provided by the project come complete with bees, accessories, and supplies.

  (Photos by Regional Inspector General/Cairo, September 21, 2011) 


	 Feed mill. WRF was to develop a program that processes animal feed for poultry, cows,
   and goats. The mill (1) provides the appropriate types of good-quality feed, (2) creates
   additional jobs at the co-op, (3) provides animal feed to project beneficiaries and other
   farmers at affordable and competitive prices, and (4) generates income for the co-op.

	 Poultry farm. WRF was to provide each beneficiary with (1) 210 chicks that are 3 months
   old; (2) building materials, including cement, doors, windows, and wire fencing, as well as
   labor to build shelter for the chicks; (3) equipment (feeders and drinkers); (4) initial feed to
   cover feeding needs for 3 months; (5) training; (6) veterinary services; and (7) product
   marketing support.

The Regional Inspector General/Cairo conducted this audit to determine whether
USAID/Lebanon’s Landmines and War Victims Project was achieving its main goals of
expanding viable, sustainable economic opportunities for victims of landmines and war in the
District of Jezzine, Lebanon.

Although the project has had some successes in providing income-generating opportunities and
ancillary or indirect benefits to some beneficiaries, its sustainability is questionable. According
to WRF, the project has provided grants to 305 recipients since 1998. The grants have included
provision of commodities, such as bees, poultry, and goats, and business supplies and
accessories such as beehives and wiring for fences. Of the 305 recipients, 154 (51 percent)
were active in the co-op as of June 30, 2011, and at least 32 (10 percent) have graduated from
the project over the past decade by establishing personal businesses or becoming gainfully
employed with other organizations or businesses. However, 119 recipients (39 percent)
dropped out of the project because of poor business management practices or for personal
reasons—death, marriage, and relocations outside of Jezzine. Moreover, mission officials
stated that some recipients were not able to sustain operations because of diseases, war, water
shortages, and inability or unwillingness to deal with challenges.

USAID/Lebanon officials agree that the project has enabled marginalized, disadvantaged
people and communities to regain value-added roles in society. For example, a project
beneficiary who lost an arm during a war participates in the beekeeping activity and earns about

                                                                                                 2
$3,000 of additional annual income. Another beneficiary earns an additional $200 per month by
raising chickens (shown in photos) to sell.




    These chickens belong to a project beneficiary in Jezzine who sells them to generate income.
    (Photos by Regional Inspector General/Cairo, September 21, 2011)

In addition, as part of the project’s strategy to develop sustainability, the co-op created the
brand B. Balady2 for its goods, including herbs, chicken products, honey, and eggs (shown on
the next page). According to WRF, the co-op distributes products to 108 grocery stores, food
retail businesses, and a variety of minimarkets around Lebanon. To help ensure sustainability,
co-op officials plan to seek external funding from options that include (1) private donors, (2)
rental of facility equipment and space to generate income, and (3) coordination with other
USAID projects to create production and delivery efficiency. According to WRF, the external
funding is needed because the co-op has not generated profit without USAID assistance for 4 of
the 8 previous years.

USAID/Lebanon officials do not believe the sustainability of the co-op is questionable, because
its revenues have steadily increased from 2003 to 2010. However, revenue alone is not an
accurate measure of a business’s potential sustainability. A better measure is net income,
measured as the funds that a business retains after all expenses are paid. Acknowledging the
need for this kind of measure, three separate evaluations conducted in July 2005, December
2008, and June 2010 by a consultant for USAID/Lebanon and the Leahy War Victims Fund
identified sustainability and profitability as main project concerns.

The co-op’s successes have been limited. During fiscal year (FY) 2010, WRF reported that 169
beneficiaries earned a total net income of $403,000. Based on the numbers of beneficiaries,
the average annual income earned through the project was $2,400 per beneficiary, and only 64
of 169 beneficiaries (38 percent) met or exceeded their annual target for expected net income
during FY 2010. Furthermore, WRF reported that the co-op did not generate profit without
USAID/Lebanon’s assistance for 4 of 8 years of operation (beginning in 2003) and experienced
an average annual net loss of about $8,800.




2
  According to one USAID/Lebanon employee, the term B. Balady means “my village” in the agri-food
sector and is used to refer to natural food products.

                                                                                                   3
    The development cooperative in Jezzine sells these herbs, chicken products, honey, and eggs
    under the brand B. Balady to various venues in Lebanon. (Photos by Regional Inspector
    General/Cairo, September 21, 2011)

Mission officials measured the success of the project using two types of indicators—work plan

indicators and performance management plan indicators—which measure actual results 

compared with intended results. Work plan indicators measure immediate results of activities, 

such as revenues from poultry production, the feed mill, and honey and wax processing. 

Performance management plan indicators measure cumulative project information such as total 

sales revenue and net income of the co-op, number of grant recipients, and the number of co-op

members.


Although the project did not achieve five of its eight work plan indicator targets in 2010 and six

of its eight work plan indicator targets in 20113 (Appendix III), USAID/Lebanon officials do not

see slippage on work plan targets as a signal of poor performance of the co-op. Moreover, the

implementer, WRF, did not meet its targets for 3 of 16 performance management plan indicators 

for FY 2010 and was not on track to meet 6 of 16 performance management plan indicators for

FY 2011, as shown in Appendix IV. 


Regarding project management, USAID/Lebanon did not:


     Obtain approval for project extension (page 6). 

     Obligate project funds appropriately (page 7). 

     Monitor the sustainability of the development cooperative adequately (page 9). 

     Submit a revised project budget for agreement officer approval (page 12). 

     Seek approval of subawards for construction activities (page 13). 

     Obtain equipment disposition instructions (page 15). 

     Assess the environmental impact of imported livestock (page 17). 


To strengthen management controls and address these findings, this audit recommends that the

mission:


1. 	 Request written approval from the director of the Office of Acquisition and Assistance for the
     approval of the award extension beyond 10 years (page 7).
3
    Target measurements for 2011 are as of June 30, 2011.

                                                                                                  4
2. 	 Provide and document refresher training to mission employees on obtaining approval for
     project extensions (page 7).

3. 	 Review its portfolio to identify, in writing, any current projects in excess of 10 years and
     document actions to extend these projects based on the approval of the director of the
     Office of Acquisition and Assistance (page 7).

4. 	Notify the Office of the Chief Financial Officer, in writing, of the potential funds control
    violations for determination and resolution (page 9).

5. 	Update project work plans to include indicators that measure sustainability of the
    development cooperative created with USAID funding (page 12).

6. 	 Require WRF to present the cooperative’s financial statements in a consistent format year to
     year so that the mission can monitor financial ratios as indicators of sustainability (page 12).

7. 	Develop and implement procedures to require approval by the appropriate authority of
    project revisions affecting project budgets (page 13).

8. 	 Require staff to submit, in writing, to the agreement officer for approval all proposals for
     activities to be funded with reallocated funds (page 13).

9. 	Determine the allowability of the $195,000 in questioned costs for deleted project
    components, and recover any amounts determined to be unallowable. (page 13).

10. Develop and implement procedures that require implementers of nonconstruction assistance
    awards to provide a list of proposed or pending subawards and subcontracts before hiring a
    subcontractor to do the work (page 14).

11. Notify the agreement officer, in writing, of completed, proposed, or pending subawards and
    subcontracts for any work under nonconstruction assistance awards before the implementer
    hires a subcontractor to begin work (page 14).

12. Require agreement officer’s technical representatives (AOTRs) to submit for agreement
    officer approval all requests for equipment disposition (page 16).

13. Determine the allowability of the $8,000 in questioned costs from the insurance company,
    plus any accrued interest, and recover from WRF any amounts determined to be
    unallowable (page 17).

14. Complete an Initial Environmental Examination for the importation of goats to Lebanon and
    submit to the environmental officer for approval (page 18).

Detailed findings are included in the following section. Appendix I contains information on the
scope and methodology. Management comments are included in their entirety in Appendix II,
and an evaluation of management comments is included on page 19.




                                                                                                   5
AUDIT FINDINGS

USAID/Lebanon Did Not Obtain
Approval for Project Extension
USAID’s Automated Directives System (ADS) 303.3.6.5.a,4 “Follow-on Assistance Agreements
and Amendments,” effective June 1, 2006, states that a follow-on assistance award is a new
agreement subsequent to the completion of an existing agreement for either the same activity or
to further develop an existing assistance relationship. USAID may implement a follow-on
assistance award through an amendment to the original award or as an entirely separate award.
This authority must not be used to extend an award made to U.S. organizations beyond 10
years of its original award date unless the director of the USAID Office of Acquisition and
Assistance approves an exception. ADS 303.3.6.5.b,5 “Unsolicited Applications,” effective June
1, 2006, further states that a recipient’s request to extend an ongoing relationship must not be
considered an unsolicited application. To make such an extension without competition, USAID
must prepare a justification for the extension as an amendment or follow-on assistance award.

USAID/Lebanon awarded funds to WRF from June 1998 to August 2012, more than 10 years
beyond the agreement’s original award date, without an approval from the director of the USAID
Office of Acquisition and Assistance. In June 1998, USAID/Lebanon awarded a cooperative
agreement to WRF to work with landmine victims and later expanded the agreement to include
survivors of landmines and victims of war in the District of Jezzine in South Lebanon. The first
cooperative agreement included creating and commissioning a development cooperative facility;
providing beneficiaries with income-generating opportunities in beekeeping, herb cultivation,
and raising poultry, goats, and dairy cows; and expanding B. Balady brand marketing.

On the basis of an unsolicited proposal submitted by WRF to USAID/Lebanon and to the Leahy
War Victims Fund on June 23, 2006, USAID/Lebanon’s cognizant regional agreement office at
USAID/Egypt awarded a second cooperative agreement in September 2006 to continue
activities for war victims under the same project with an end date of August 2008, 2 months past
the 10-year limitation. The mission then extended the agreement to February 2009 and August
2009. In August 2009, the regional agreement office amended the agreement to add a fifth
phase to the project and to extend the agreement to August 2012, more than 4 years beyond
the 10-year limitation.

According to a July 2006 negotiation memorandum, the agreement officer’s technical
representative (AOTR) responsible for managing the first cooperative agreement was aware of
the 10-year limitation and noted it in the memorandum she sent to the agreement officer.
Despite this disclosure, in September 2006 the agreement officer signed and approved the
second agreement beyond the 10-year limitation. The AOTR believed that, because a new

4
  Effective November 16, 2011, USAID updated its policy on follow-on awards. The changes can now be
found in ADS 303.3.6.6.a(2)(h), “Follow-on Awards and Extensions.” The policy revisions state that
approvals for extensions beyond 10 years must now be approved by the cognizant assistant
administrator.
5
  This directive was applicable when the problem occurred. Although USAID updated the ADS language
effective November 16, 2011, the revision did not affect the audit finding for information cited in this
report.    The updated language can be found currently in ADS 303.3.6.6.a(2)(g), “Unsolicited
Applications.”

                                                                                                      6
cooperative agreement was signed, the 10-year limitation would restart. In addition, the
regional procurement specialist responsible for the negotiations of the fifth phase was not aware
that this program was an extension of a prior agreement because the agreement officer for the
second award did not include the negotiation memorandum in the official files. This
memorandum would have provided background information for the award of the second
cooperative agreement.

In recent years, USAID has encouraged partnership, innovation, and results as part of its efforts
to reform the way it does business. Goals include procurement reform to contract with and
provide grants to more local partners. Goals also include innovation in which creative solutions
can be funded, piloted, and brought to scale. By continuing to do business with the same
implementer for more than 14 years for the same activity, USAID/Lebanon is not ensuring that
the Agency meets its overall goals of reform. Therefore, the audit makes the following
recommendations.

    Recommendation 1. We recommend that USAID/Lebanon request written approval
    from the director of the Office of Acquisition and Assistance for the approval of the award
    extension beyond 10 years.

    Recommendation 2. We recommend that USAID/Lebanon provide and document
    refresher training to mission employees on obtaining approval for project extensions.

    Recommendation 3. We recommend that USAID/Lebanon review its portfolio to
    identify, in writing, any current projects in excess of 10 years and document actions to
    extend these projects based on the approval of the director of the Office of Acquisition
    and Assistance.

USAID/Lebanon Did Not Obligate
Project Funds Appropriately
Extensive guidance governs federal funding, appropriations, and obligations. A Government
Accountability Office (GAO) publication, Principles of Federal Appropriations Law,6 Chapter 7,
Section E, states that funds that are deobligated after the expiration of the original period of
availability are not available for new obligations but may be available for adjustments.7
Chapter 10, Section F, “Obligation of Appropriations for Grants,”8 states that a “replacement
grant” does not create a new obligation (i.e., an obligation that must be charged to the current
appropriation). However, a replacement grant requires three conditions to be met: (1) the bona
fide need for the grant project must continue, (2) the purpose of the grant from the government’s
standpoint must remain the same, and (3) the revised grant must have the same scope.

Moreover, the guidance in “Recap on Deobligations, Reobligations, and Upward Adjustments,”
an Additional Help Reference for ADS Chapter 621, states that deobligated funds may be used
for an upward adjustment to an old obligation. However, if USAID wants to use these
deobligated funds for new obligations, the Office of Management and Budget (OMB) has to
apportion them to USAID after being notified by the Agency.

6
  GAO-06-382SP Appropriations Law—Vol. II, January 2004. 

7
  USAID (ADS 621.6) defines an upward adjustment as an increase of an amount of a previously 

recorded obligation when the actual amount is determined and is larger than the estimated amount. 

8
  Grants refer to assistance awards such as cooperative agreements and grants.


                                                                                                  7
ADS 634.3.2, “General Standards for Funds Control,” states that for the administrative control of
funds at USAID, obligations and expenditures may not be authorized or incurred in excess of
any legal or administrative limitations, and an obligation of funds must be within the available
time limit of the appropriation. ADS 634.3.5.3, “Investigation of Funds Control Violations,” states
that any individual with knowledge of a potential funds control violation or knowledge of any
proposed action that may lead to a funds control violation, either statutory or administrative,
must contact the director of the Financial Policy and Support Division in the Office of the Chief
Financial Officer immediately.

In August 2008, USAID/Lebanon obligated $250,000 as an upward adjustment with
development assistance funds that expired in FY 2006. These funds were available for an
upward adjustment, but not for a new obligation after the funds expired in FY 2006. Two years
earlier, in December 2006, USAID/Lebanon’s cognizant financial management analyst
deobligated the $250,000 from FY 2006 funds under a prior cooperative agreement to expand
economic opportunities to target beneficiaries in the District of Jezzine. According to a
memorandum between USAID/Lebanon and the regional agreement officer, the mission
intended to reobligate these funds under a second cooperative agreement for the same
activities, mainly to construct the co-op.

Because of delays under the first cooperative agreement—such as the challenges in finding
suitable land to build the co-op facility, the avian flu threat and its consequences on the market,
and the July 2006 conflict in Lebanon—the implementer did not build the co-op facility as
approved in modification 15 of the project’s first award, during September 2004. Consequently,
USAID/Lebanon officials decided to postpone this component and add it to the second
cooperative agreement.

The reobligation was considered a new obligation and did not qualify as an upward adjustment
because the second cooperative agreement met only two of the three GAO conditions for a
replacement grant. The third condition was not met because the scope of the second
agreement was expanded to include new activities, such as the milk- and cheese-processing
unit and goat-raising activities, and to provide grants to 600 additional direct beneficiaries.
Thus, the reobligation under the second cooperative agreement no longer qualified as an
upward adjustment, but a new obligation. Although the mission wanted to use the $250,000 to
reobligate funds for a new obligation, USAID/Lebanon did not ask the Office of Management
and Budget (OMB), through USAID’s Office of the Chief Financial Officer, to apportion the
deobligated funds to USAID, as required. Consequently, the mission charged a new obligation
of $250,000 in August 2008 against an expired fund account, resulting in a potential funds
control violation.

This potential violation occurred because the prior AOTR provided, and in April 2008 the
mission director approved, a written justification to the regional agreement officer stating that
these funds would be used to implement activities that were delayed under the first cooperative
agreement.      This justification was reinforced by a Leahy Fund staff member at
USAID/Washington, who also asserted that these funds were for the same scope as the old
agreement. According to e-mail correspondence in July 2008, USAID/Washington’s Chief
Financial Officer’s Central Accounting and Reporting staff used this justification to provide
account information for the expired funds to USAID/Lebanon’s financial management analyst for
use as an upward adjustment instead of seeking approval from OMB to apportion the
deobligated funds to create a new obligation with the expired funds.



                                                                                                 8
Control of federal funds is necessary to ensure that USAID-appropriated funds are used as
intended. Control is also necessary to avoid potential statutory or administrative violations that
could result in disciplinary or criminal penalties. It is incumbent on each USAID mission to
institute sufficient controls to ensure that financial transactions are executed appropriately and
that funds are allocated to priority projects to make the best use of USAID’s limited resources.
Therefore, the audit makes the following recommendation.

   Recommendation 4. We recommend that USAID/Lebanon notify the Office of the Chief
   Financial Officer, in writing, of the potential funds control violations for determination and
   resolution.

USAID/Lebanon Did Not Monitor
Sustainability of the Development
Cooperative Adequately
The Foreign Assistance Act of 1961, as amended (codified at 22 U.S.C. 2151), Part 1, Chapter
1, “Policy; Development Assistance Authorizations,” Section 101, “General Policy,” states that
one of the five principal goals of U.S. development cooperation should be to promote conditions
enabling developing countries to achieve self-sustaining economic growth with equitable
distribution of benefits.

Furthermore, ADS 303.2.f, “Primary Responsibilities,” requires the AOTR to ensure that USAID
exercises prudent management over its awarded assistance by monitoring and evaluating the
recipient and its performance during the award. To monitor and evaluate the award, the AOTR
is required to:

	 Review and analyze reports and monitor reporting requirements.

	 Ensure compliance with the terms and conditions of the award.

	 Notify the agreement officer promptly of any developments that could have a significant
   impact on the recipient’s performance.

	 Prepare internal documents to support amendments to the award.

	 Perform other duties, as requested or delegated by the agreement officer, to ensure prudent
   management of assistance funds.

The AOTR designation letter for USAID/Lebanon’s Landmines and War Victims’ Project states
that the AOTR is responsible for monitoring the recipient’s progress in achieving the objectives
and for verifying that the recipient’s activities being funded by USAID conform to the terms and
conditions of the award. Furthermore, the letter states that properly discharging AOTR duties
minimizes the risk of facing disciplinary action and that AOTRs should be particularly cautious in
financial management because improper actions could indicate gross negligence.

USAID/Lebanon added a fifth phase to the project in August 2009 to enable the co-op to
function as a sustainable, efficient, profitable, stand-alone business entity without the need for
external financial support. To achieve this goal, USAID/Lebanon established FY 2010 and 2011
work plans that included indicators of revenues from co-op activities such as the feed mill,
beekeeping, and chicken production; total revenue; and total income.

                                                                                                    9
Consultant evaluations submitted to the Leahy War Victims Fund and USAID/Lebanon in July
2005, December 2008, and June 2010 identified sustainability and profitability as main concerns
of the project. In addition, the June 2010 project evaluation stated that, to be sustainable, the
co-op would need to generate sufficient revenue to cover costs and earn a modest profit.

In general, key performance indicators such as financial ratios are useful to interpret numbers
found in financial statements and can help answer critical questions, such as whether
customers are paying according to the terms of their agreements, whether the entity’s assets
are being used properly to generate income, and whether operating expenses are too high.
Furthermore, ratios that measure efficiency, such as accounts receivable turnover and inventory
turnover, indicate how well an entity manages its assets. Ratios that measure profitability, such
as net profit margin, can show how well an entity has managed operating expenses to ensure
sustainability.

	 Accounts receivable turnover is calculated as total net sales divided by accounts receivable.
   This ratio shows the number of times that accounts receivable are paid and reestablished
   during the accounting period. The higher the turnover, the faster the business is collecting
   its receivables and the more cash it generally has on hand.

	 Inventory turnover is calculated as the cost of goods sold divided by inventory. This ratio
   shows how many times in one accounting period a company sells its inventory. Faster
   turnovers are viewed as a positive trend; they increase cash flow and reduce warehousing
   and related costs.

	 Net profit margin is calculated as total net profit divided by total sales. This ratio indicates
   how well a business has managed its operating expenses. The higher the profit margin, the
   better the entity is thought to have managed its costs.

The project did not achieve indicator targets used to measure co-op revenues and net income
during 2010 and in 2011, which resulted in $73,000 that the mission could have reallocated to
activities that are more profitable. The project did not achieve five of eight indicator targets used
to measure co-op revenues and net income for 2010 and did not achieve six of eight indicator
targets as of June 30, 2011. Moreover, the project did not make sound business decisions or
end activities that were not meeting revenue targets. Specifically, the beekeeping activities did
not meet their targets for 2010 and, the $35,000 in the remaining budget could have been
reallocated. In addition, the poultry (broiler) activities did not meet their targets for 2010 and
had a remaining budget of $38,000. Although the two activities valued at $73,000 did not meet
2010 targets, the mission did not reallocate funds to profitable activities during 2011. Since the
second agreement focused on sustainability of the co-op, WRF reported that the co-op
generated positive net income for the past 2 years. However, without USAID funding, the co-op
averaged an annual net loss of about $8,800 in 4 of 8 previous years, as shown in Table 2.




                                                                                                  10
             Table 2. Development Cooperative Net Income without Project Funding
                                   2003–2010 (unaudited)

                      2003              2004           2005            2006      2007         2008         2009        2010       Average
Total revenues       145,697       220,601         334,280        475,746       818,271     1,035,791    1,116,530   970,211      639,641
Total expenses       123,944       192,370         278,765        453,619       776,579     989,686      1,082,264   946,444      605,459
Net income           21,753            28,231          55,515      22,127       41,692       46,105        34,266     23,767      34,182
USAID
                      6,396            29,541          44,521      72,373       80,414       76,496        29,591     4,490       42,978
assistance
Net income 

(without project     15,357            (1,310)         10,994     (50,246)      (38,722)    (30,391)       4,675      19,277      (8,796)

assistance)



Moreover, since FY 2004 the co-op’s accounts receivable turnover decreased from 7.25 to 3.04,
or 58 percent, and inventory turnover ratios decreased from 48.99 to 13.26, or 73 percent. In
other words, using 365 days divided by the turnover ratio, the co-op normally collected
outstanding credit sales about every 50 days in 2004 and about every 120 days in 2010. The
co-op normally sold inventoried products about every 7 days in 2004 and about every 27 days in
2010. This indicates that over the past 7 years, the co-op’s efficiency at collecting on credit
sales and selling inventory decreased. According to USAID/Lebanon officials, collecting
accounts receivable is problematic for most Lebanese producers that supply supermarkets
because retailers in Lebanon make delayed payments that slow the overall sales cycle. Tables
3 and 4 present accounts receivable and inventory turnover ratios, respectively.

     Table 3. Accounts Receivable Turnover Ratio for the Development Cooperative
                               2004–2010 (unaudited)
                              2003               2004            2005          2006         2007          2008         2009          2010
  Accounts
                          $25,296              $35,601          $56,054       $105,121     $165,097     $230,297     $316,917      $320,963
  receivable
  Sales                  $145,697           $220,601            $334,280      $475,746     $818,271     $1,035,791   $1,116,530    $970,211
  Turnover                     -                 7.25             7.29          5.90         6.06          5.24         4.08         3.04
  Percentage change            -                   -              1%           -19%          3%           -14%         -22%          -25%
  Total percentage
                               -                   -               -             -            -             -            -           58%
  change


               Table 4. Inventory Turnover Ratio for the Development Cooperative
                                     2004–2010 (unaudited)
                               2003               2004             2005          2006         2007         2008        2009         2010
  Inventory                   $4,587             $ 3,368         $ 16,232      $22,496      $ 44,375     $ 42,037     $57,599      $58,025
  Cost of goods sold      $124,888               $194,861        $267,372      $414,577     $684,842     $846,569    $883,040     $766,367
  Turnover                         -              48.99           27.28          21.41        20.48        19.59       17.73        13.26
  Percentage change                -                   -           -44%          -22%         -4%           -4%        -10%         -25%
  Total percentage
                                   -                   -               -             -            -             -        -          73%
  change


In addition, the co-op’s net profit margin decreased from 11 percent in 2003 to 2 percent in
2010, indicating that it has not effectively managed costs and expenses. Table 5 presents the
net profit margin of the co-op, which was negative for at least 4 of 8 years.



                                                                                                                                              11
    Table 5. Net Profit Margin for the Development Cooperative 2003–2010 (unaudited)
                         2003       2004       2005        2006        2007        2008         2009        2010
  Net income, without
                        $15,357    $(1,310)   $10,994    $(50,246)   $(38,722)   $(30,391)     $4,675      $19,277
  project assistance
  Sales                 $145,697   $220,601   $334,280   $475,746    $818,271    $1,035,791   $1,116,530   $970,211
  Net profit margin       11%        -1%        3%         -11%        -5%          -3%          0%          2%


Since March 2010, the current AOTR has relied on the co-op’s quarterly financial statement
reports provided by WRF. The AOTR did not challenge the validity of the financial statements
because mission staff believed that the statements were compiled from annually audited
financial information. However, the net income without project assistance shown in the financial
statements depicted an average annual net loss of almost $8,800 over the past 8 years, as
shown in Table 2. In addition, the most recent audited financial statement, as of December 31,
2010, indicated net losses for the co-op of 14.8 million Lebanese lira, or about $9,900. The
remaining budget for the two less profitable activities noted above, valued at about $73,000,
should have been reallocated to profitable project activities.

To achieve self-sustaining growth with an equitable distribution of benefits in USAID projects,
mission officials must have data that reflect the most accurate reports and analyses of project
results. These reports and analyses provide the foundation for logical management decisions
formulated by AOTRs and mission management officials. If AOTRs’ responsibilities for
oversight are minimized, significant events that may limit project development and performance
may not be elevated to management to ensure that funds are put to the best uses to achieve
intended results. Budgeted funds for nonperforming projects should be reallocated to more
profitable activities that will increase the return on investment. Therefore, this audit makes the
following recommendations.

    Recommendation 5. We recommend that USAID/Lebanon update project work plans
    to include indicators that measure sustainability of the development cooperative created
    with USAID funding.

    Recommendation 6.        We recommend that USAID/Lebanon require the World
    Rehabilitation Fund to present the cooperative’s financial statements in a consistent
    format year to year so that the mission can monitor financial ratios as indicators of
    sustainability.

USAID/Lebanon Did Not Submit a
Revised Project Budget for
Agreement Officer Approval
Title 22 of the Code of Federal Regulations, Part 226, “Administration of Assistance Awards to
U.S. Non-governmental Organizations,” Section 25(b), states that recipients are required to
report deviations from budget and program plans, and request prior approvals for budget and
program plan revisions. In addition, USAID’s ADS 303.3.17a, “Administrative Duties,” states
that when a modification to the award is necessary, the AOTR prepares internal USAID
documentation that supports the modification and satisfies the agreement officer.

On February 26, 2009, USAID/Egypt, as the mission’s procurement office, approved
modification 3 of the second cooperative agreement, which deleted the milk and cheese
component, valued at about $195,000, from the project. Even though modification 3 resulted in

                                                                                                                   12
a deviation from the approved budget by deleting a project component, the agreement officer
did not include a revised budget reallocating the funds that had been budgeted to the
component deleted in the modification.

According to the current project AOTR, a previous AOTR was not aware that the revised budget
needed to be submitted for approval by the agreement officer for program plan revisions. In
addition, mission officials stated that a transitional budget was instituted in April 2007, shifting
funds from the milk and cheese component to the construction of the co-op with the intent to
continue the milk and cheese component when additional funds became available. However,
mission officials stated that project records do not clearly identify where the mission reallocated
funds for the deleted component.

As an administrative duty, the AOTR must prepare documentation that satisfies an agreement
officer in support of agreement modifications. Since the AOTR did not prepare documentation
to clearly identify where the deleted component funds were reallocated, the mission cannot be
sure that USAID funds totaling $195,000 were spent on allowable project costs. To address this
concern, this audit makes the following recommendations.

   Recommendation 7. We recommend that USAID/Lebanon develop and implement
   procedures to require approval by the appropriate authority of project revisions affecting
   project budgets.

   Recommendation 8. We recommend that USAID/Lebanon require staff to submit, in
   writing, to the agreement officer for approval all proposals for activities to be funded with
   reallocated funds.

   Recommendation 9. We recommend that USAID/Lebanon determine the allowability of
   the $195,000 in questioned costs for deleted project components, and recover any
   amounts determined to be unallowable.

USAID/Lebanon Did Not Seek
Approval of Subawards for
Construction Activities
Title 22 of the Code of Federal Regulations, Part 226, “Administration of Assistance Awards to
U.S. Non-Governmental Organizations,” Section 25(c)(8), states that for nonconstruction
awards, the recipient shall request prior approvals from the USAID agreement officer for the
subaward, transfer, or contracting out of any work under an award. As noted in ADS 303.3.17a,
“Administrative Duties,” the AOTR and the agreement officer share in the oversight of an
assistance award and should work as a team to administer the cooperative agreement
effectively. As part of that responsibility, the agreement officer represents the U.S. Government
to enter into, administer, and terminate contracts and make related determinations and findings.
In addition, the AOTR’s designation letter requires that the AOTR verify that the recipient’s
USAID-funded activities conform to the terms and conditions of the award, which includes the
project’s budget plan.

USAID/Lebanon approved the project’s second cooperative agreement for the implementer to
construct a building to house the operations of the co-op and the activities of the project. The
co-op construction had an initial budget of $359,000 that USAID/Lebanon increased to about
$704,000 on September 1, 2008, by modification 2 of the agreement. WRF subcontracted the

                                                                                                   13
construction of the co-op facility to a local construction firm at a cost of $579,000 without
obtaining approval from USAID/Lebanon’s regional agreement officer. Although records
indicate that the AOTR at the time informed the agreement officer of the construction activities,
mission officials agreed that project files do not contain any documentation to show that the
agreement officer approved the construction work.

Although the agreement officer and AOTR provide the primary level of management oversight to
ensure that the agreement officer approves the subcontracting of any work under an award, the
project’s AOTR stated that the AOTR at the time of construction activities was not aware that
subcontracting work under the award needed agreement officer approval. The agreement
officer did not approve the work for the project because the AOTR at the time did not provide
subaward information for the agreement officer’s approval.




 The mill (left) at the cooperative facility in Jezzine supplies feed (right) for livestock and
 chickens. (Photos by Regional Inspector General/Cairo, September 21, 2011)

A budget plan is the financial expression of a project that is approved during the award process.
The budget plan may include a federal share and a nonfederal share, depending on USAID
requirements documented in the agreement. In addition, the agreement officer’s approval of
subcontracts serves to assist in the performance of a project—specifically, meeting budget
requirements. Even though the AOTR and agreement officer share oversight responsibilities for
meeting budget requirements, the agreement officer should have approved the subcontract to
construct the co-op facility. Exercising such management oversight could have provided
controls that would have decreased construction costs, which nearly doubled from initial
estimates. To address this issue, the audit makes the following recommendations.

   Recommendation 10. We recommend that USAID/Lebanon develop and implement
   procedures that require implementers of nonconstruction assistance awards to provide a
   list of proposed or pending subawards and subcontracts before hiring a subcontractor to
   do the work.

   Recommendation 11. We recommend that USAID/Lebanon notify the agreement
   officer, in writing, of completed, proposed, or pending subawards and subcontracts for
   any work under nonconstruction assistance awards before the World Rehabilitation Fund
   hires a subcontractor to begin work.




                                                                                                  14
USAID/Lebanon Did Not Obtain
Equipment Disposition Instructions
The U.S. Government and its federal agencies have documented guidance regarding property
use and disposal in numerous regulations. Title 22 of Code of Federal Regulations, Part 226,
“Administration of Assistance Awards to U.S. Non-Governmental Organizations,” Section 34,
“Equipment,” states that when the recipient no longer needs equipment, the recipient shall
request disposition instructions from the USAID agreement officer. Furthermore, the agreement
officer shall issue instructions to the recipient no later than 120 calendar days after the
recipient's request to perform one of the following procedures:

	 The recipient shall sell the equipment and reimburse USAID an amount computed by
   applying to the sales proceeds the percentage of federal participation in the cost of the
   original project or program. However, the recipient shall be permitted to deduct and retain
   $500 or 10 percent of the proceeds from the federal share, whichever is less, for the
   recipient’s selling and handling expenses.

	 If the recipient is instructed to ship the equipment elsewhere, the recipient shall be
   reimbursed by the U.S. Government (USG) for an amount that is computed by applying the
   percentage of the recipient's participation in the cost of the original project or program to the
   current fair market value of the equipment, plus any reasonable shipping or interim storage
   costs incurred.

	 If the recipient is instructed to dispose of the equipment otherwise, USAID will reimburse the
   recipient for costs incurred in its disposition.

On March 28, 2008, while driving a USAID-funded vehicle, a WRF employee was involved in an
accident that totaled the vehicle, as shown in the photo on the next page. In accordance with
the vehicle’s insurance policy, an auto insurance company determined the damaged vehicle to
be a total loss valued at $8,000 on May 21, 2008. Although WRF submitted the insurance
reports to the AOTR and requested guidance regarding the disposal of the vehicle on May 22,
2008, the AOTR did not request disposition instructions from the cognizant agreement officer.
Moreover, the AOTR at the time stated in an e-mail response to WRF that USAID does not get
involved in the terms of the implementer’s contract with an insurance company.




                                                                                                 15
             This USAID-funded vehicle sits in traffic after being totaled in an
             accident. (Photo provided by World Rehabilitation Fund Inc.,
             March 28, 2008)

According to the current AOTR, she was not aware at the time of the accident that agreement
officer approval was needed prior to disposition of equipment. In addition, mission officials
stated that the AOTR made an error in responding that USAID does not get involved in the
terms of an implementer’s contract with an insurance company.

The agreement officer did not ensure that WRF used the proceeds from the total vehicle loss
toward allowable project expenditures. According to USAID/Lebanon officials, WRF deposited
the insurance funds in its account and expected instructions from USAID on procedures to
reimburse the project. As a result, the agreement officer could not make a disposition
determination that would allow the $8,000 from the insurance company to be put to better use.

USAID mission officials and implementers are responsible for ensuring that project equipment
financed by the Agency is safeguarded and used appropriately. Since USAID-funded project
equipment is provided to implementers to assist in project operations, an implementer must use
the equipment entrusted to and in the custody of its organization for specific purposes until the
equipment is no longer needed. If USAID-funded equipment has been destroyed, is not usable,
and does not reach its projected remaining service life, both the AOTR and the implementer
should inform management officials and ask for instructions on proper disposition. When
information about equipment destruction is not conveyed to the responsible managers, the costs
of a USAID project increase, and managers do not have the relevant information with which to
make the best financial decisions about proposed project expenditures. Therefore, this audit
makes the following recommendations.

   Recommendation 12. We recommend that USAID/Lebanon require agreement
   officer’s technical representatives to submit for agreement officer approval all requests
   for equipment disposition.



                                                                                               16
    Recommendation 13. We recommend that USAID/Lebanon determine the allowability
    of the $8,000 in questioned costs from the insurance company, plus any accrued
    interest, and recover from the World Rehabilitation Fund any amounts determined to be
    unallowable.

USAID/Lebanon Did Not Assess
the Environmental Impact of
Imported Livestock
Title 22 of the Code of Federal Regulations, Part 216, Section 1(b), “Environmental
Procedures,” states that USAID’s policy is to ensure that the environmental consequences of
USAID-financed activities are identified and considered by USAID and the host country prior to
a final decision to proceed and that appropriate environmental safeguards are adopted.
USAID’s policy is also to identify impacts upon the environment resulting from USAID's actions.
Title 22 of the Code of Federal Regulations, Part 216, Section 3(a), “General Procedures,”
requires an Initial Environmental Examination for all activities that are not otherwise exempt,
such as education, technical assistance, or training programs.            Based on the Initial
Environmental Examination, the originating office decides whether the proposed activity will
significantly affect the environment, resulting in one of two recommendations for the Bureau
Environmental Officer’s approval:

   A Positive Threshold Decision is a finding that the proposed action will have a significant
    effect on the environment and may require a more extensive Environmental Impact
    Statement or Environmental Assessment to be completed.

   A Negative Threshold Decision is a finding that the proposed action will not have a
    significant effect on the environment.

USAID/Lebanon’s Landmines and War Victims Project approved two waivers to acquire 118
Saanen goats to be imported from France without examining the environmental consequences.
In March 2007 and February 2009, USAID/Lebanon’s mission director gave approval to the
implementer to import 116 female goats and 2 male goats to assist the income-generating
activities of the project. Although USAID included language on raising goats in the latest
cooperative agreement, dated September 2006, the mission did not mention goat activities in
any Initial Environmental Examination. More important, USAID/Lebanon did not mention the
importation of a foreign breed of goats into Lebanon in either of the Initial Environmental
Examinations completed in May 2006 or July 2009. In addition, project beneficiaries mated
imported goats with local goats to sell offspring as meat. As reported by WRF, some Saanen
goats were infected by bluetongue disease, which affected all goats throughout Europe during
2008. As a result, European authorities vaccinated these goats and prohibited their exportation
from Europe. Although goats were not to be exported, the implementer reported that the
supplier received permission from French authorities to export goats that were free from the
bluetongue disease.




                                                                                            17
 These goats belong to a project beneficiary in Jezzine who sells their meat and dairy products
 made from their milk to generate income. (Photos by Regional Inspector General/Cairo,
 September 21, 2011)

The problem occurred because the mission official preparing the Initial Environmental
Examinations did not include any language on the overall goat-raising activity in the project file
for review by USAID’s Middle East Bureau environmental officer. Although some activities
require an Initial Environmental Examination to determine whether a USAID activity will affect
the environment, according to the AOTR, livestock was not believed to have an environmental
impact because the regulations did not specifically list livestock as one of the classes of actions
normally having a significant effect on the environment. Consequently, the environmental
officer did not determine whether the goat activities might have a significant impact on the
environment.

Without evaluating the environmental impact of importing a nonnative goat breed into Lebanon,
the mission cannot be sure that environmental consequences of USAID-financed activities—
such as introducing new diseases to Lebanon or contaminating local goat breeds—have been
considered and appropriate environmental safeguards have been adopted. Therefore, the
mission cannot provide assurance that the environmental impact of USAID's actions has been
documented or mitigated. Therefore, the audit makes the following recommendation.

   Recommendation 14. We recommend that USAID/Lebanon complete an Initial
   Environmental Examination for the importation of goats to Lebanon and submit to the
   environmental officer for approval.




                                                                                                18
EVALUATION OF MANAGEMENT
COMMENTS
In response to our draft report, USAID/Lebanon officials generally agreed with all 14
recommendations.        As a result, management decisions have been reached on all
recommendations except Recommendation 9 and parts of Recommendation 12, and final action
taken on Recommendations 4, 5, 6, 7, 10, 11, 13, and 14. The mission should provide action
plans and target dates for implementing Recommendation 9 and a revised action plan for
Recommendation 12 within 30 days of the final report. In addition, the mission should provide
the Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
with evidence of final action to close all recommendations.

Recommendation 1. USAID/Lebanon officials agreed to request written approval from the
director of the Office of Acquisition and Assistance by January 31, 2012, to extend the award
beyond ten years.        Accordingly, a management decision has been reached on this
recommendation.

Recommendation 2.          USAID/Egypt’s regional procurement officials agreed to conduct
refresher training during a planned visit to USAID/Lebanon by January 20, 2012. Therefore, a
management decision has been reached on this recommendation.

Recommendation 3. Mission officials identified in writing current projects in excess of 10 years
submitted a request to the Ambassador on December 7, 2011, to end projects valued at about
$4.6 million not competitively awarded by February 29, 2012. Accordingly, a management
decision has been reached on this recommendation.

Recommendation 4. USAID/Egypt’s regional financial management officials notified the Office
of the Chief Financial Officer of the potential funds control violation on December 27, 2011.
Therefore, a management decision has been reached and final action taken on this
recommendation.

Recommendation 5. USAID/Lebanon officials approved a revised project work plan on
December 16, 2011, that includes indicators to measure sustainability of the development
cooperative. Accordingly, a management decision has been reached and final action taken on
this recommendation.

Recommendation 6. Mission officials asked the World Rehabilitation Fund to present financial
statements of the development cooperative in a consistent format, and on December 19, 2011,
the World Rehabilitation Fund provided updated financial statements as of September 30, 2011,
that reflected a comparable format to prior financial statements. Accordingly, a management
decision has been reached and final action taken on this recommendation.

Recommendation 7. USAID/Lebanon officials revised its semiannual portfolio implementation
reviews on November 12, 2010 to include regional procurement office and regional legal advisor
review of project budget issues. Therefore, a management decision has been reached and final
action taken on this recommendation.



                                                                                             19
Recommendation 8. Mission officials requested approval from the agreement officer for
activities to be funded with reallocated funds and expect a determination by January 20, 2012.
Accordingly, a management decision has been reached on this recommendation.

Recommendation 9. USAID/Lebanon officials agreed to review the questioned costs to
determine whether any amounts are unallowable and to recover, by January 20, 2012, deleted
project funds. A management decision has not been reached on this recommendation.

Recommendation 10. Mission officials sent a letter to current implementers on December 16,
2011, requesting them to provide the mission with a list of proposed or pending subawards for
any work under nonconstruction assistance awards before subawardees begin work. In
addition, on December 30, 2011, mission officials implemented a procedure in their
procurement plan that requires AOTRs to ensure implementers provide listings of proposed or
pending subawards to agreement officers for review. Accordingly, a management decision has
been reached and final action taken on this recommendation.

Recommendation 11. USAID/Lebanon officials sent USAID/Egypt’s regional procurement
office USAID/Lebanon’s project implementers’ list of completed, proposed, or pending
subawards for any work under nonconstruction assistance awards for management review on
December 21, 2011. Therefore, a management decision has been reached and final action
taken on this recommendation.

Recommendation 12. Mission officials issued a mission order effective November 22, 2010,
that specifies the responsibilities of AOTRs, which include verifying the disposition of
equipment. In addition, USAID/Egypt’s financial management officials conducted training on
November 10, 2010, that covered the disposition of equipment. However, the mission order
does not specifically require the AOTR to obtain approval from the agreement officer prior to
disposing of equipment. A management decision will be reached when the mission order has
been revised to specifically require the AOTR to obtain approval from the agreement officer
prior to disposing of equipment.

Recommendation 13. USAID/Lebanon officials agreed that the questioned costs of $8,000
were unallowable and recovered $8,000 from the World Rehabilitation Fund on December 20,
2011. Consequently, a management decision has been reached and final action taken on this
recommendation.

Recommendation 14. Mission officials revised its initial environmental examination for the
importation of goats and obtained approval from the environmental officer on December 14,
2011. Therefore, a management decision has been reached and final action taken on this
recommendation.




                                                                                           20
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this performance audit in accordance with
generally accepted government auditing standards.9 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

The audit objective was to determine whether USAID/Lebanon was achieving its goals of
expanding viable, sustainable economic opportunities for victims of war in the District of
Jezzine, Lebanon. Audit fieldwork was conducted at USAID/Lebanon from September 19 to
September 29, 2011. The audit covered the period from October 1, 2009, to June 30, 2011.
The initial amount awarded for agreement no. 268-A-00-06-00065 was approximately $2.8
million for the 2-year period from September 1, 2006, to August 31, 2008. Subsequently,
USAID/Lebanon modified the project agreement, increasing the estimated award amount to
approximately $5.7 million and extending the life of the project by 4 years, resulting in a new
closing date of August 30, 2012. The audit team tested approximately $3 million, or 69 percent,
of about $4.4 million that was disbursed to WRF, the implementing partner, as of June 30, 2011.

In planning and performing the audit, we assessed management controls related to
documentation and data verification, reporting, supervisory and management review at the
functional and activity level, physical control over vulnerable assets, and establishment and
review of performance measures and indicators. The specific management controls assessed
included verifying reported data to source documents, reviewing authorizing approval of
agreements and modifications, performing inventory observation of selected assets, and
recalculating indicator amounts for accuracy. The audit team also reviewed the management
controls in place to monitor project activities. We conducted the review through interviews with
the mission and implementer staff, observations, and review of reports and files that the mission
provided as part of its project monitoring activities. Specifically, we obtained an understanding
of and evaluated the following: USAID/Lebanon’s Expanding Economic Opportunities for
Victims of War in the District of Jezzine, South Lebanon’s cooperative agreement with WRF;
subsequent modifications to the agreement; the mission’s performance management plans; the
annual work plans prepared by WRF; the mission’s FY 2010 Federal Managers’ Financial
Integrity Act assessment; the oversight performed by the AOTR; performance measures; and
data quality assessments.

We conducted the audit at USAID/Lebanon in Beirut, visited implementing partner offices in
Beirut, and conducted site visits in Jezzine.

Methodology
To answer the audit objective, we met with personnel from USAID/Lebanon and from WRF, as
well as with eight beneficiaries. We reviewed documentation provided by USAID/Lebanon and
WRF, including the performance management plans, annual work plans, monitoring and

9
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).

                                                                                               21
                                                                                        Appendix I


evaluation plan reports, the cooperative agreement, and subsequent modifications. We also
reviewed progress reports and site visit reports.

To assess whether the goals and objectives of the project were achieved, we judgmentally
selected eight activities from project component 2—Strengthening and Expanding the Income-
Generating Programs of the Co-op and Increasing Co-op Membership for FY 2010 and
FY 2011—and reviewed selected target indicators and achievements for both fiscal years as of
June 30, 2011. The audit team considered a FY 2010 target achieved if reported actual
amounts met at least 90 percent of the work plan target and a FY 2011 target is achieved if
reported actual amounts are within 10 percent of 75 percent of work plan targets as of June 30,
2011.

We validated reported results using numerous techniques to review project component 2
(1) tracing mission-reported results to documented results and records (e.g., beneficiary record
sheets, implementer invoices compared with disbursements, and progress reports) in the office
of the implementing partner; (2) visiting the project co-op to observe the retail shop and feed mill
activity; and (3) interviewing mission personnel, implementing partner staff, and beneficiaries.
In addition, we also reviewed supervisory review and the level of monitoring conducted by the
AOTR and USAID/Lebanon by reading site visit reports, and data quality assessments.

Furthermore, we reviewed applicable laws and regulations and USAID policies and procedures
regarding USAID/Lebanon’s Landmines and War Victims Program, including the cooperative
agreement and modifications with WRF; the Foreign Assistance Act of 1961; the U.S. GAO’s
Principles of Federal Appropriations Law; ADS Chapters 303 (“Grants and Cooperative
Agreements to Non-Governmental Organizations”), 621 (“Obligations”), and 634
(“Administrative Control of Funds”); and Title 22 Code of Federal Regulations Part 226
(Administration of Assistance Awards to U.S. Non-Governmental Organizations) and Part 216
(Environmental Procedures).




                                                                                                 22
                                                                                        Appendix II



MANAGEMENT COMMENTS 



                                                                   January 3, 2012

MEMORANDUM

To:                Regional Inspector General/Cairo, Jacqueline Bell

From:              USAID/Lebanon Mission Director, Dr. Jim Barnhart /s/

Subject:           Audit of USAID/Lebanon’s Landmines and War Victims Program
                   (Report No. 6-268-12-0XX-P)

USAID/Lebanon is in general agreement with all of RIG recommendations. For
Recommendations Nos. 1, 4, 8 and 9, the Mission requested a determination by the concerned
parties (OAA and the CFO); for all other recommendations, the Mission has taken the corrective
actions.

Recommendation No. 1: We recommend that USAID/Lebanon request a written
determination from USAID/Lebanon’s regional agreement officer regarding the
applicability of the requirement to obtain the approval of the award extension beyond
10 years.

Mission Response: The Mission agrees with this recommendation. On November 28, 2011
(Attachment A) a written request was sent to the Office of Assistance and Acquisition (OAA) in
Cairo to determine the applicability of the requirement to obtain the approval of the award
extension beyond 10 years. On December 29, 2011, the Regional Agreement Officer (AO)
responded as follows (Attachment A-1):“Following an extensive review of the initial award file,
other documents and applicable regulations at the time of award, the current Agreement Officer
determines that approval should have been sought from the Director M/OAA to extend the
award beyond a ten year period in accordance with ADS 303.3.6.5 a “Follow-on Assistance
Agreements and Amendments.” By end of January 2012, the OAA will send a message to
Procurement staff and Lebanon staff to reinforce the requirement for Director M/OAA approval
for awards that exceed 10 years. Specifically, in those cases where an award was made non-
competitively, if the justification was based on the “Follow-on exception to competition, the AO
needs to ensure that the modification for an extension when added to the length of the current
and previous awards does not exceed 10 years in total.”

Target date for completion: January 31, 2012

Recommendation No. 2: We recommend that USAID/Lebanon provide refresher training to
mission employees regarding procedures to obtain approval for project extensions appropriately

                                                                                                23
                                                                                    Appendix II


and in a timely manner.

Mission Response: The Mission agrees with this recommendation. The Regional Office of
Assistance and Acquisition Office (OAA) in Cairo is heavily involved in USAID/Lebanon’s
ongoing activities and future procurement planning through daily communication. The Regional
Contracting Officer and Regional Contracting Specialist provide quarterly temporary duty trips
and participate in the Mission’s semi-annual portfolio reviews and hence provide procurement
guidance as appropriate, and constantly update mission staff with the procurement rules and
regulations governing both assistance and acquisition. OAA provides ongoing guidance of
procurement related policy updates. For example, on August 25, 2011, OAA sent an update of
the approvals required for extensions for both acquisition (ADS 302) and Assistance (ADS 303)
to USAID/Lebanon staff. In addition, the Regional Contracting Officer will conduct a refresher
training session to USAID/Lebanon Mission staff during a planned visit to Lebanon between
January 10-15, 2012.

Target date for completion: January 20, 2012.

Recommendation 3: We recommend that USAID/Lebanon review its portfolio to identify any
current projects in excess of ten years and document actions to extend the project based on
authorized approval of USAID/Lebanon’s cognizant Assistant Administrator.

Mission Response: The Mission reviewed its portfolio and identified one current beneficiary,
the American Community School (ACS) as having received funding under essentially the same
program in excess of ten years (2000-2012). ACS is among five American educational
institutions (AEIs) in Lebanon historically subject to Congressional earmarks. In the past, the
Mission processed exemption from competition waivers for funding of AEIs based on ADS
303.3.6.5 (h) Congressional mandated Programs (waivers for the current ACS program 2006-
2012 are summarized in Attachment C). On December 7, 2011, the Mission sought approval by
the U.S. Ambassador to phase out further direct, non-competed support to the International
College and the American Community School (Attachment C-1). The Ambassador asked that
USAID/Lebanon to establish a competitive process that allows financially needy students to
attend such elite schools. To address the audit recommendation, OAA will terminate the
existing award to ACS once the final voucher payment has been processed anticipated to be
completed February 29, 2012. In addition, any future programming, pending funding availability,
to IC and ACS will be awarded competitively and will shift focus possibly to support financially
needy upper secondary students from heading to university. USAID/ Lebanon’s portfolio
includes other current partners with consecutive awards in excess of ten years (Attachment C-
2), but these partners received funding under different agreements awarded competitively. For
example, current awards to the Lebanese American University, the American University of
Beirut, and Haigazian University were made under the University Student Assistance Program
(USAP) Annual Program Statements (Phase I and II) under full and open competition with
exemption to competition waivers granted as follow-on awards.

The Mission is adhering to applicable agency procedures on extensions and follow-on awards
including procurement reforms announced by USAID/General Notice dated August 24, 2011.

Target date for completion: February 29, 2012.

Recommendation 4: We recommend that USAID/Lebanon notify USAID’s Director of the
Bureau of Management, Chief Financial Officer’s Financial Policy and Support Division
regarding the potential funds control violations for determination and resolution.

                                                                                              24
                                                                                      Appendix II



Mission Response: On December 27, 2011, USAID’s Director of the Bureau of Management,
Chief Financial Officer’s Financial Policy and Support Division was notified regarding the
potential funds control violations for determination and Resolution (Attachment D). In addition,
the Mission has been educating staff as opportunity arises. For example, on June 25, 2009,
Cairo Chief Accountant, Sherif Zohdi, conducted a half day training to USAID/Lebanon Mission
staff on covering accruals, obligations (de-ob/re-ob) and funds control (Attachment E).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 4 upon report
issuance.

Recommendation 5: We recommend that USAID/Lebanon update project work plans to
include indicators that monitor and measure sustainability efforts of the development
cooperative created with USAID funding.

Mission Response: On December 16, 2011 the AOTR approved a revised work plan and
Performance Management Plan (PMP) of the program to include several activities that build
and ensure the sustainability of Jezzine Cooperative (COOP) (Attachment F). Three new
indicators, Accounts Receivable Turnover Ratio, Inventory Turnover Ratio, and Net Profit
Margin, were added to the PMP to track the financial performance and sustainability of the
COOP.

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 5 upon report
issuance.

Recommendation 6: We recommend that USAID/Lebanon require the implementer to present
financial statements of the cooperative in a consistent format for comparability from year to year
for mission review to monitor financial ratios as indicators directly related to sustainability.

Mission Response: On December 12, 2011, the AOTR requested that the implementer
presents consistent financial statements of the cooperative in a consistent format for
comparability from year to year. The implementer’s income statement was adjusted to include a
depreciation column for 2010 reflecting the depreciation corrections that were made
retrospectively for the previous years (Attachment G). Moreover, the depreciation for the
calendar year 2011 will be adjusted and shown accordingly in the December 2011 report.

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 6 upon report
issuance.

Recommendation 7: We recommend that USAID/Lebanon develop and implement procedures
to ensure project revisions that would affect project budgets are approved by the appropriate
responsible authority.

Mission Response: The Mission has strengthened activity review processes that ensure that
work plan changes that affect project budgets are approved by the appropriate responsible
authority. Two years ago, the Mission institutionalized semi-annual Portfolio Implementation
Reviews in collaboration with RLA, OAA and FM to collectively review program performance
including analysis of budget issues. On November 12, 2010, the Mission revised its Portfolio

                                                                                                25
                                                                                        Appendix II


Implementation Activity Sheet to include OAA and RLA actions (Attachment H). The last two
portfolio reviews were conducted in June and November 2011 including the Landmines and War
Victims Program (Attachment H-1).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 7 upon report
issuance.

Recommendation No. 8: We recommend that USAID/Lebanon submit proposed activities to be
funded by reallocated funds to the agreement officer for approval.

The Mission response to both Recommendations 8 and 9 is given below.

Recommendation No. 9: We recommend that USAID/Lebanon determine if deleted project
component funds valued at $195,000 were used for project costs that were allowable.

In response to Recommendations 8 and 9, the Mission compiled the information below on the
use of funds programmed for the milk/cheese activity and requested OAA review of its
allowability.

2007: WRF submitted, on April 27, 2007, a transitional budget for Phase IV, that proposed
shifting $190,300 in funds from the milk/cheese processing to make available $652,000 for the
COOP building construction. This transitional budget was approved by the AOTR in an email
dated May 14, 2007. Subsequently, the Mission requested that the Regional Agreement Officer
(AO) realign the budget accordingly in an action memorandum dated June 7, 2007. However,
while Modification # 01 dated September 23, 2007 indicates that a purpose of the amendment
was to realign the budget, the budget was not attached to the agreement amendment. Thus,
funds amounting to $190,300 were “borrowed” from the milk/cheese line item to contribute to
financing of construction of the COOP building, and the official file copy for Modification # 01 did
not fully clarify the transitional budget realignment.

2008: In the next project budget, approved by the AO as part of a six-month extension
(Modification # 02) dated August 28, 2008, the milk/cheese line item continued to be shown as a
planned project activity, but the estimated value was increased to $215,786 (Attachment I-2).
Of the funds approved for Dairy in Modification No. 2, a total amount of $28,941 was used in
December 2008 to cover installation of the cold storage / fermentation rooms as part of the
building construction. Thus, only $28,941 of the $215,786 budgeted for the Dairy activity were
expended for that purpose, the balance of $186,845 remained as a “debit” “borrowed” from the
milk/cheese line but used for COOP building construction.

2009: In January 2009, discussions between the Mission and the implementing partner led to
dropping of the “dairy” component. As a result, the implementing partner submitted, on
February 11, 2009, a new request for incremental funding of $289,874 with two columns, one
labeled “Total Obligated Amount” and the other unfunded as “Suggested allocation of the
amount remaining to be obligated” with the milk/cheese line item allocation shown as “zero”
(Attachment I).

The Mission concludes that the amount of $186,845 was “borrowed” from the milk/cheese
activity for the COOP building construction. OAA determination was requested.



                                                                                                 26
                                                                                   Appendix II


Target date for completion: January 20, 2012.

Recommendation No. 10: We recommend that USAID/Lebanon develop and implement
procedures that require implementers to provide a list of proposed or pending subawards and
subcontracts for any work under non-construction assistance awards before implementers hire
a subcontractor to begin work.

Mission Response: On December 16, 2011, the Mission Director sent letters (Attachment J) to
the current implementing partners requested that the implementers adhere to the Code of
Federal Regulations, Post award Requirements 22CFR226.25.c 8 that states “For non-
construction awards, recipients shall request prior approvals from the USAID Agreement Officer
for one or more of the following program or budget related reasons:
(8) Unless described in the application and funded in the approved budget of the award, the
subaward, transfer or contracting out of any work under an award. This provision does not apply
to the purchase of supplies, material, equipment or general support services.”
The implementers were also requested to provide the Mission with a list of proposed or pending
subawards and subcontracts for any work under non-construction assistance awards before
implementers hire a subcontractor to begin work.
The Mission implemented a procedure for review of subawards by notifying AOTRs of the
requirement to ensure implementers provide listings of proposed or pending subawards and to
incorporate OAA reviews of such subawards as part of the Mission’s annual procurement plan.
This procurement plan is updated on a continuous basis based on biweekly conference calls
between the Mission Program Office and OAA. (Attachment J-1 provides the procurement plan
template and Attachment J-2 provides the notice to USAID staff to include 22CFR226.25.c 8
reviews in the procurement plan).

Based on the above, the mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 10 upon report
issuance.

Recommendation 11: We recommend that USAID/Lebanon notify the agreement officer, in
writing, of completed, proposed or pending subawards and subcontracts for any work under
non-construction assistance awards before the implementer hires a subcontractor to begin
work.

Mission Response: On December 21, 2011 the Mission forwarded the implementers list of
completed, proposed or pending subawards and subcontracts for any work under non-
construction assistance awards to the Officer of Acquisition and Assistance (Attachment K).

Based on the above, the mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 11 upon report
issuance.

Recommendation 12: We recommend that USAID/Lebanon provide training to agreement
officer’s technical representatives on procedures to ensure that request for equipment
dispositions are submitted to the agreement officer for approval.

Mission Response: The Mission has reinforced procedures for ensuring effective use of
project equipment and its disposal through issuance of Mission Order 11/08 (Attachment L) on
fulfilling duties of program, during PIR reviews and periodic refresher training. On November
10, 2010, a Cairo Financial Analyst provided USAID/Lebanon Mission staff with an End-Use

                                                                                              27
                                                                                     Appendix II


Verification Presentation covering the end use planning phase, implementation phase, and
reporting and follow up phase (Attachment L-1).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 12 upon report
issuance.

Recommendation 13: We recommend that USAID/Lebanon determine the allowability of
$8,000 plus any accrued interest in questioned costs and recover from the implementer any
amounts determined to be unallowable.

Mission Response: The WRF Head office in New York submitted the refund on December
20th, 2011, and provided documentation of their payment to USAID on December 21, 2011
(Attachment M).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation requests closure of Audit Recommendation No. 13 upon report issuance.

Recommendation 14: We recommend that USAID/Lebanon complete an initial environmental
examination for the importation of goats to Lebanon and submit to the environmental officer for
review and concurrent approval.

Mission Response: The Initial Environmental Examination was revised to include the
importation of goats to Lebanon. On December 14, 2011, Robert Macleod, the Bureau
Environmental Officer approval was obtained (Attachment N).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 14 upon report
issuance.




                                                                                              28
                                                                                                                                                        Appendix III


      Selected Work Plan Indicators - Project Component 2: Strengthening and expanding the income 

                  generating programs of the co-op and increasing co-op membership 

                                       (Amounts reported by implementer to USAID/Lebanon)

                                                                                                                                                              
                                                                                                For the period October 1, 2010 to June 30,
                                                      Calendar Year 2010                                          2011

                                                         Actual       % of                                         Actual    % of
Performance Indicators                   Target ($)       ($)        Target     Achieved        Target ($)          ($)     Target*          Achieved
           Co-op revenues
           from honey and wax             25,649          1,019         4           No            3,000            1,486        50             No
           processing
           Co-op revenues from
                                          50,068         50,280       100          Yes           54,000            53,458       99             Yes
           the retail shop
           Co-op revenues
                                          626,402       333,765        53           No           450,000       360,910          80             Yes
           from the feed mill
           Co-op revenues from
                                          153,354       431,528       281          Yes           450,000       327,750          73             No
           the poultry program
  Co-op
Revenues   Co-op   revenues
 and Net   from the beekeeping            23,559         16,458        70           No           22,980            11,200       49             No
 Income    program
           Co-op revenues
           from the chicken               156,131       103,612        66           No           129,600           77,116       60             No
           broiler program

             Total revenues of the       1,039,434      969,702        93          Yes          1,200,000      859,028          72             No
             co-op

             Net income of the co-        33,193         23,767        72           No           65,000             255         0              No
             op
                                                                                                                                          
                                                                                                                                                              
* A target was considered on track if its percentage equaled at least 75 percent of the annual target. Test work included the third quarter ended
June 30, 2011.                                                                                                                                                
                                                                                                                                                              




                                                                                                                                                                 29
                                                                                                                                                  Appendix IV


                World Rehabilitation Fund’s Performance Management Plan Indicators for Fiscal Year 2010


                                                                                    Baseline Year                   FY
                                                                      Unit of                         FY 2010                    %       Target
          USAID PMP Intermediate Result/Indicator                                   Value/Actual                   2010                             Verified
                                                                     measure                           Target                 Achieved    Met*
                                                                                      FY 2009                      Actual
  IR 2.1.2.a Number of agricultural related firms benefiting           (#
                                                                                                                                                      298
  directly from U.S. Government [USG]-supported                   beneficiaries/         282            298         298         100       Yes
                                                                                                                                                  (cumulative)
  interventions (cumulative)                                         farms)
  IR 2.1.2.b Number of microenterprises receiving business
                                                                     1 (co-op)            1               1           1         100       Yes          1
  development services from USG-assisted sources
  IR 2.1.3 Number of microenterprises participating in USG-
                                                                     1 (co-op)            1               1           1         100       Yes          1
  assisted value chains
  IR 2.3.a Number of beneficiaries that successfully                    (#
  accessed bank loans as a result of USG assistance               beneficiaries/          5              15           5          33       No           5
  (cumulative)                                                       farms)
                                                                        (#
  IR 2.3.b Number of beneficiaries that successfully accessed                                                                                         298
                                                                  beneficiaries/         282             298        298         100       Yes
  private equity as a result of USG assistance (cumulative)                                                                                       (cumulative)
                                                                     farms)
  IR 2.3.c Number of SMEs that successfully accessed
                                                                     1 (co-op)            0               1           0          0        No           0
  bank loans as a result of USG assistance
  IR 2.3.d Number of SMEs that successfully accessed
                                                                     1 (co-op)            1               1           1         100       Yes          1
  private equity as a result of USG assistance
                         WRF Indicator
                                                                                                                                                       298
  1. Number of grant recipients (cumulative)                         Number              282            298         298         100       Yes
                                                                                                                                                   (cumulative)
                                                                                                                                                       217
  2. Number of co-op members (cumulative)                            Number              229            245         219          89       No
                                                                                                                                                  (cumulative)
  3.a Number of co-op members who received training                  Number               30             24          31         129       Yes          27
  3.b Number of co-op board members and staff who
                                                                     Number               21             22          22         100       Yes          22
  received training
  3.c Number of co-op members who received coaching and
                                                                     Number               30             46         182         396       Yes         121
  technical assistance
  4. Number of job opportunities created (beneficiaries and
                                                                     Number              349            367         379         103       Yes         370
  co-op) (cumulative)
  5. Sales revenues of the co-op                                       USD            1,175,988      1,000,000    920,958        92       Yes       925,557
  6.a Net Income of the co-op (excluding WRF cash grants)              USD              4,675          33,000      32,160        97       Yes        39,558
   6.b Estimated net income of beneficiaries                           USD             409,677         396,252      402,909     102       Yes       402,909
* For FY 2010, if the implementer met 90 percent of the target, the audit considered the target met or substantially met.


                                                                                                                                                                 30
                                                                                                                                   Appendix IV



   World Rehabilitation Fund’s Performance Management Plan Indicators Fiscal Year 2011 as of June 30, 2011

                                                                   Unit of                        FY 2011      %       Target on
         USAID PMP Intermediate Result/Indicator                                 FY 2011 Target                                      Verified
                                                                  Measure                          Actual   Achieved     Track
                                                                     (#
IR 2.1.2.a Number of agricultural related firms benefiting                                                                             305
                                                                beneficiaries/        311          305         98        Yes
directly from USG supported interventions (cumulative)                                                                             (cumulative)
                                                                   farms)
IR 2.1.2.b Number of microenterprises receiving business
                                                                  1 (co-op)            1            1         100        Yes            1
development services from USG-assisted sources
IR 2.1.3 Number of microenterprises participating in USG-
                                                                  1 (co-op)            1            1         100        Yes            1
assisted value chains
IR 2.3.a Number of beneficiaries that successfully                    (#
accessed bank loans as a result of USG assistance               beneficiaries/        25            6          24         No            6
(cumulative)                                                       farms)
                                                                      (#
IR 2.3.b Number of beneficiaries that successfully accessed                                                                            305
                                                                beneficiaries/        311          305         98        Yes
private equity as a result of USG assistance (cumulative)                                                                          (cumulative)
                                                                   farms)
IR 2.3.c Number of SMEs that successfully accessed bank
                                                                  1 (co-op)            1            0          0          No            0
loans as a result of USG assistance
IR 2.3.d Number of SMEs that successfully accessed
                                                                  1 (co-op)            1             0         0          No            0
private equity as a result of USG assistance
                        WRF Indicator
                                                                                                                                       305
1. Number of grant recipients (cumulative)                         Number             311          305         98        Yes
                                                                                                                                   (cumulative)
                                                                                                                                       221
2. Number of co-op members (cumulative)                            Number             258          221         86        Yes
                                                                                                                                   (cumulative)
3.a Number of co-op members who received training                  Number             37            30         81        Yes           30
3.b Number of co-op board members and staff who received
                                                                   Number             26            20         77        Yes           20
training
3.c Number of co-op members who received coaching and
                                                                   Number             59           182        308        Yes           182
technical assistance
4. Number of job opportunities created (beneficiaries and co-
                                                                   Number             380          379        100        Yes           379
op) (cumulative)
5. Sales revenues of the co-op                                      USD            1,200,000      859,028      72         No         859,030
6.a Net income of the co-op (excluding WRF cash grants)             USD             65,000         255         0          No           255
6.b Estimated net income of beneficiaries                           USD             354,996       142,328      40         No         142,328




                                                                                                                                                31
                                                                                          Appendix V


                             Project Agreements and Modifications
                                   as of September 29, 2011

   Cooperative                                                                Effective
                                               Project Title                                  Remarks
   Agreement                                                                    Date
                             Preventing Landmine Injuries and Managing the
268-A-00-98-00076-00                                                          3-Jun-98
                                Social Burden of Landmines in Lebanon
                                               Modification 01                13-Aug-98
                                               Modification 02                25-Sep-98
                                               Modification 03                25-Feb-99
                                               Modification 04                 6-Jul-99
                                               Modification 05                12-Jul-99
                                               Modification 06                10-Aug-99
                                               Modification 07                27-Sep-99
                                               Modification 08                13-Sep-00
                                                                                               Jezzine
                                               Modification 09                30-Sep-01        Project
                                                                                               Phase I
                                               Modification 10                2-Apr-02
                                               Modification 11                30-Sep-02
                                               Modification 12                24-Feb-03        Phase II
                                               Modification 13                13-Nov-03
                                               Modification 14                22-Jul-04
                                               Modification 15                30-Sep-04       Phase III
                                               Modification 16                11-Nov-04
                                               Modification 17                19-Sep-05
                                               Modification 18                12-Apr-06
                                               Modification 19                9-Sep-06
268-A-00-06-000065-         Expanding Economic Opportunities for Victims of
                                                                              1-Sep-06        Phase IV
       0010                     War in the District of Jezzine - Lebanon
                                               Modification 01                23-Sep-07
                                               Modification 02                28-Aug-08
                                               Modification 03                26-Feb-09
                                               Modification 04                30-Aug-09        Phase V
                                               Modification 05                16-Dec-09
                                               Modification 06                26-Apr-10
                                               Modification 07                15-Sep-11




   10
        This audit report focuses on Phases IV and V.

                                                                                                  32
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
